                                                                                        C.S. Department of Homeland SecuriQ
                                                                                        3003 Chamblee-Tucker Road
                                                                                        Atlanta, Georgia 30341




                                              June 24,2005

MEMORANDUM


TO:              Kenneth 0 . Burris, Jr.


FROM:
                 Field Office Director

SUBJECT:         Monroe County School District
                 Key West, Florida
                 FEMA Disaster 1249-DR-FL
                 Audit Report No. DA-17-05


The Office of Inspector General (OIG) audited public assistance funds awarded to the Monroe
County School District, Key West, Florida. The objective of the audit was to determine whether the
District accounted for and expended FEMA funds according to federal regulations and FEMA
guidelines.

The District received an award of $6.5 million from the Florida Department of Community Affairs, a
FEMA grantee, to remove debris and repair or replace buildings damaged as a result of Hurricane
Georges in September 1998. The award provided 75 percent FEMA funding for 6 large projects and
16 small projects.1 The audit covered the period September 1998 to June 2003. During this period,
the District claimed $6,457,456 (see Exhibit) and received $4,843,093 of FEMA funds under the
projects.

We performed the audit under the authority of the Inspector General Act of 1978, as amended, and
according to generally accepted government auditing standards. The audit included tests of the
District's accounting records, a judgmental sample of expenditures, and other auditing procedures
considered necessary under the circumstances.


                                                 RESULTS OF AUDIT

The District's claim included questioned costs of $548,035 (FEMA share $41 1,026) resulting from
charges that were either excessive or covered by insurance.

' Federal regulations in effect at the time of the disaster set the large project threshold at $47,100.
A. Excess Charges. The District's claim was overstated by $287,949, as follows:

       The District claimed $360,367 under Project 285 for engineering and design services related
       to the replacement of a high school auditorium substantially damaged during the disaster.
       However, the claim was based on an estimate rather than actual costs. We determined that
       the actual engineering and design costs incurred for construction of the auditorium totaled
       $191,808, or $168,559 less than the amount claimed. Accordingly, we question the excess
       claim of $168,559.

       The District could have but did not obtain $282,762 of insurance coverage for its high school
       auditorium under FEMA's National Flood Insurance Program (NFIP). In this situation, the
       amount of disaster assistance for replacement of the auditorium should have been reduced by
       the amount of available insurance coverage (44 CFR 206.252). However, we found that a
       FEMA inspector reduced project costs by only $234,763 for lack of required flood insurance
       under the auditorium replacement project (No. 285). The inspector mistakenly gave the
       District a $47,999 credit for depreciation. However, under the NFIP's flood insurance
       policy, a depreciation credit applies only to an insured's principal residence and not general
       property such as the auditorium. Accordingly, we question the $47,999 of excess charges.

       The District claimed $213,056 under Project 162 for repairs to Key West High School.
       However, actual project costs were $141,665, or $71,391 less than the claimed amount. The
       difference resulted from a mathematical error made by District officials when totaling costs
       for the repairs. We question the excess claim of $71,391.

B. Costs Covered by Insurance. The District claimed $337,902 under several projects to cover the
   costs of making disaster-related repairs at several schools. The amount claimed was based on the
   costs to complete the necessary repairs less anticipated insurance recoveries. However, the claim
   was overstated by $260,086 because the actual insurance proceeds under the projects exceeded
   the estimated insurance recoveries. Moreover, for three of the projects (Nos. 20915,20909, and
   39598), actual recoveries exceeded total project costs, thus alleviating the need for FEMA
   funding. Federal regulation (44 CFR 206.253) prohibits the use of public assistance funds for
   damages covered by insurance. Accordingly, we question the $260,086 of losses covered by
   insurance, as follows:
                                       RECOMMENDATION

We recommend that the Regional Director, in coordination with the grantee, disallow the $548,035
of questioned costs.


               DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the results of the audit with District, grantee, and FEMA officials on April 29, 2005.
District officials withheld comment, stating that they wanted to further research the questioned costs.

Please advise the Atlanta Field Office-Division by September 23,2004, of actions taken to
implement our recommendation. Should you have any questions concerning this report, please
contact me or David Kimble at (770) 220-5242
                                                                Exhibit

                Monroe County School District
             FEMA Disaster Number 1249-DR-FL
           Schedule of Claimed and Questioned Costs

                         Large Projects
Project       Amount                Amount      Amount
Number       Awarded                Claimed    Questioned
39598       $ 72,373             $ 72,373        $ 72,373
209 10          60,786                60,786
209 13         140,965               140,965
20915          115,735               115,735      115,735
  162          213,056               213,056       71,391
  285        5,545,210             5,545,210      216,558
Subtotal    $6,148,125           $6,148,125      $476,057

                         Small Projects

  178                                            $ 3,657
  156                                                  3,657
  177                                                  3,657
  179                                                  3,656
20900                                                 2 1,296
20901
20902
20903
20904
20905
20906
20907
20908
20909                                                 34,174
2091 1                                                 1,881
20912
Subtotal

Total
